September 25, 2003
Audit Report No. 03-042


Business Continuity Planning at
FDIC-Supervised Institutions




                0
                                                    TABLE OF CONTENTS

BACKGROUND ........................................................................................................................... 2
   Business Continuity Planning: An Industry Perspective ...................................................... 4
   DSC’s Approach to Examining Business Continuity Planning at FDIC-Supervised
   Institutions ................................................................................................................................. 6
RESULTS OF EVALUATION .................................................................................................... 7
FINDING A: DSC ACTIVELY PARTICIPATES IN EFFORTS TO ADDRESS
BUSINESS CONTINUITY PLANNING.................................................................................... 8
   DSC Participation in the FFIEC ............................................................................................. 8
   DSC Participation in the Financial and Banking Information
   Infrastructure Committee........................................................................................................ 9
   Examiner Training Stresses Enterprise-Wide Business Continuity Planning .................. 10
   IT Examiner’s Implementation of DSC’s Approach to Business Continuity
   Planning at FDIC-Supervised Institutions ........................................................................... 10
FINDING B: DSC’S EXAMINATION APPROACH TO BUSINESS CONTINUITY
PLANNING ................................................................................................................................. 11
   Key Elements of Business Continuity Planning ................................................................... 11
CORPORATION COMMENTS AND OIG EVALUATION................................................. 15
APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY.......................................... 16
APPENDIX II: GLOSSARY ..................................................................................................... 19
APPENDIX III: CORPORATION COMMENTS .................................................................. 20
APPENDIX IV: MANAGEMENT RESPONSES TO RECOMMENDATIONS................. 21
TABLES
       Table 1: FDIC-Supervised Institutions Statistics............................................................... 3
       Table 2: Technology Risk Profile and Applicable Examination Procedures................. 7
       Table 3: Common BCP Elements ...................................................................................... 12
       Table 4: BCP Common Elements That Need To Be Addressed in DSC’s Approach.. 13
FIGURE
       Business Continuity and Disaster Recovery ....................................................................... 5




                                                                        1
Federal Deposit Insurance Corporation
801 17th St. NW Washington DC. 20434                                                 Office of Inspector General




DATE:                                  September 25, 2003

MEMORANDUM TO:                         Michael J. Zamorski
                                       Director, Division of Supervision and Consumer Protection



FROM:                                  Russell A. Rau
                                       Assistant Inspector General for Audits

SUBJECT:                               Final Report Entitled Business Continuity Planning at
                                       FDIC-Supervised Institutions
                                       (Evaluation Report No. 03-042)


This report presents the results of our evaluation of business continuity planning at Federal
Deposit Insurance Corporation (FDIC)-supervised institutions. Financ ial institutions play a
crucial role in the U.S. economy. Therefore, business operations of financial institutions must be
resilient, and the effects of disruptions in service must be minimized in order to maintain public
trust and confidence in our financial system.

A business continuity plan (BCP) is a comprehensive, written plan developed to maintain or
resume operations, including service to customers, in the event of a disruption. Effective BCPs
are building blocks for ensuring the safety and soundness of the nation’s financial system. The
objectives of a BCP are to minimize financial loss to the institution, continue to serve customers
and financial market participants, and mitigate the negative effects disruptions can have on an
institution’s strategic plans, reputation, operations, liquidity, credit quality, market position, and
ability to remain in compliance with applicable laws and regulations.

The objective of our evaluation was to determine the adequacy of the Division of Supervisio n
and Consumer Protection’s (DSC) approach to assessing BCPs at FDIC-supervised institutions.
See Appendix I for details of our objective, scope, and methodology. Appendix II contains a
glossary of terms used in our report.


BACKGROUND

Business continuity planning is important for all federally insured institutions regardless of size
and complexity of the institution. According to the Federal Financial Institutions Examination
Council (FFIEC), financial institutions that play significant roles in critical financial markets are
those that participate in sufficient volume or value such that their failure to perform critical



                                                        2
activities by the end of the business day could present
systemic risk. Financial institutions not directly         The FFIEC is a formal interagency
participating in critical financial markets, but           body empowered to prescribe
                                                           uniform principles, standards, and
nonetheless performing financial services or               report forms for the federal
supporting financial activities deemed critical to         examination of financial institutions
regional or national financial sectors, are also           by the five federal financial
expected to establish BCPs and recovery capabilities       regulatory agencies and to make
commensurate with their role. Smaller, less complex        recommendations to promote
                                                           uniformity in the supervision of
institutions generally do not need the same level of       financial institutions.
planning, but are expected to fulfill their
responsibility by developing appropriate BCPs and
periodically conducting adequate tests of their readiness. The key concepts of business continuity
planning should be considered in the development of every BCP, but the degree to which they
are actually implemented should be relative to the risks associated with the particular entity and
its size and complexity.

As shown in Table 1, small- and medium- size financial institutions account for 99 percent of all
FDIC-insured financial institutions 1 and 31 percent of all assets held in insured financial
institutions. The FDIC has primary supervisory responsibility for 5,446, or 59 percent of all
small- to medium-size financial institutions, with $1.3 trillion in assets, or 47 percent of all assets
held by all insured financial institutions.

Table 1: FDIC-Supervised Institutions Statistics
                         All FDIC-Insured
                                                                              FDIC-Supervised Institutions
                            Institutions
Category                                                                                       Percent of FDIC-
                                       Percent
                      Number                                               Number              Supervised to All
                                       of Total
                                                                                              Insured Institutions
Large                                  109                 1%                  19                      17%
Small and Medium                     9,205               99%                5,446                      59%
Total                                9,314              100%                5,465                      59%

                                      All FDIC-Insured
                                                                              FDIC-Supervised Institutions
                                         Institutions
Category                                                                                       Percent of FDIC-
                                Total Assets           Percent          Total Assets
                                                                                               Supervised to All
                                 (millions)            of Total          (millions)
                                                                                              Insured Institutions
Large                       $5,940,053            69%                     $434,353                      7%
Small and Medium            $2,665,991            31%                    $1,257,742                    47%
Total                       $8,606,044           100%                    $1,692,095                   20%
Source: FDIC Statistics on Banking, March 30, 2003.

The FDIC supervises the majority of small- and medium-size institutions and plays a critical
role, through its supervisory examination responsibilities, in promoting safe and sound


1
    Small- to medium-size institutions are defined as having less than $10 billion in total assets.


                                                             3
management practices, which include assessing whether these institutions are prepared to
respond to events, such as natural disasters, malicious activities, and/or technical disasters that
could cause a disruption to business operations.


Business Continuity Planning: An Industry Perspective

The Year 2000 problem was technical in nature
and generated much guidance from the federal              “In enterprise-wide business continuity
                                                          planning an institution considers every
government as well as the private sector on how           critical aspect of its business in creating a
organizations should take steps to ensure that their      plan for how it will respond to
core business processes would not be disrupted in         disruptions. It is not limited to the
the event that year-date data could not be                restoration of information technology
processed for years beyond 2000. After the                systems and services, or data maintained
                                                          in electronic form, since such actions, by
September 11, 2001 terrorist attacks, the federal         themselves, cannot always put an
government and private sector organizations               institution back in business.”
recognized that although technology was the                -- FFIEC Business Continuity Booklet
primary basis for concern for Year 2000, an
enterprise-wide, process-oriented approach that considers techno logy, business processes,
testing, and communication strategies is critical to building a viable BCP. According to the
General Accounting Office, 2 the terrorist attacks revealed limitations in many financial market
participants’ BCPs for addressing such a widespread disaster. These factors included a lack of
backup facilities that were sufficiently geographically dispersed or comprehensive enough to
conduct all critical operations, unanticipated loss of telecommunications service, and difficulties
in locating staff and transporting them to new facilities.

Information security consultants, business continuity consultants, and the FFIEC agree that
business continuity planning should be conducted on an enterprise-wide basis. Without a BCP
that considers every critical business unit, including personnel, physical workspace, and similar
issues, an institution may not be able to resume servicing its customers at acceptable levels.

Business continuity planning is the process of proactively developing, documenting, and
integrating processes and procedures and enabling technologies that will allow an organization to
respond to a disruption in such a manner that critical business functions will continue with
minimal, if any, interruption or significant changes until such time as normal facilities are
restored. Industry consultants agree that business continuity planning takes into account the
recovery of the business, not just information technology (IT) systems. Conversely, disaster
recovery planning is an IT function. A disaster recovery plan documents the actions that will be
taken to restore computer processing, applications, telecommunications services, and data after a
disruption or disaster event to prevent, or at least minimize, the relative impacts on a business.
Business continuity planning focuses on avoiding or mitigating the impact of a risk; whereas
disaster recovery focuses on restoring the organization to business as usual after a disruption
occurs.


2
 GAO-03-414, Potential Terrorist Attacks: Additional Actions Needed to Better Prepare Critical Financial Market
Participants, dated February 2003.


                                                       4
The FFIEC’s Business Continuity Planning booklet 3 discusses four basic components to business
continuity planning: the business impact analysis, risk assessment, risk management, and risk
monitoring. This planning framework is usable regardless of the size of the financial institution.
Business continuity planning encompasses the full restoration process of all business operations,
including IT, and is a function and responsibility of the entire organization.

Disaster recovery planning enables business continuity planning and, as shown below, is a
critical component of the business continuity planning process.

Business Continuity and Disaster Recovery




                                          Focus on People and
                                    Processes to Recover the Business

                           Perform Business Impact Analysis
                           •   Identify potential impact on all business
                               processes
                           •   Identify critical business
                               functions and resources
                               to maintain them
                           Risk Assessment
                           •   Identify various disruption
                               scenarios                             Focuses on IT Systems
                           Risk Management                            Following a Disruption
                           •   Plan addresses how
                               critical business                 •   Retrieval or re-creation of
                               functions will be                     critical computer processing,
                               restored                              applications,
                           •   Plan addresses loss                   telecommunications services ,
                               of key personnel                      and data after a disruption
                           Risk Monitoring                       •   Clearly defines backup and
                           •   Test the plan                         recovery techniques
                           •   Train employees
                           •   Ensure independent audit
                               review
                           •   Update plan periodically




Source: OIG Analysis of Industry Sources.



3
 In May 2003, the FFIEC issued revised guidance for examiners and financial institutions on business continuity
planning. The guidance is contained in the booklet, entitled, Business Continuity Planning (BCP Booklet). The BCP
Booklet provides guidance and examination procedures to assist examiners in evaluating financial institution and
service provider risk management processes to ensure the availability of critical financial services.




                                                       5
DSC’s Approach to Examining Business Continuity Planning at FDIC-Supervised
Institutions

DSC reviews BCP as part of its IT examinations of FDIC-supervised institutions and its
examinations of organizations that provide IT services to FDIC-supervised institutions. DSC
revised its IT examination approach in September 2002 as a result of an initiative undertaken to
improve the effectiveness and efficiency of IT examinations of the least complex financial
institutions. As part of its revision, DSC implemented new IT examination guidance and two
new related work programs that were designed toward a more risk- focused IT examination
approach:

   •   The IT-MERIT (Maximum Efficiency, Risk-Focused, Institution Targeted) Procedures
       were developed for examiners conducting technology risk reviews at FDIC-supervised
       financial institutions with the least technology risk.

   •   The IT General Work Program was developed for examiners conducting technology risk
       reviews at FDIC-supervised financial institutions with low to moderate technology risk.

For financial institutions with greater technology risk, examiners are expected to continue using
guidance and work programs issued by the FFIEC (FFIEC Work Programs) that are found in the
1996 FFIEC Information Systems Examination Handbook (Handbook). The FFIEC is updating
the Handbook to address significant changes in technology since 1996 and to incorporate a more
risk-based examination approach. The FFIEC’s updates are being issued in separate booklets
that will ultimately replace all chapters of the Handbook and comprise the new FFIEC
Information Technology Examination Handbook. The BCP Booklet is one in a series of updates
being made to the Handbook. The BCP Booklet rescinded and replaced Chapter 10, Corporate
Contingency Planning, of the Handbook.

To address the different levels of technology risk at financial institutions, DSC defined four
“types” of financial institutions based on their technology risk profile and implemented the
Technology Profile Script (TPS) to assist in determining an institution’s technology risk profile
type. Before beginning an IT examination, DSC responds to questions in the TPS based on
DSC’s review of an institution’s core processing systems, networks, electronic banking
(E-Banking) products, and other technology components. The responses to the TPS yield a
numeric score that correlates to the assigned type of the institution. This measurement of
technological complexity is intended to allow examiners to focus examination efforts on high-
risk institutions. The determination of an institution’s type is the key factor in determining
which examination procedures (IT MERIT, IT General Work Program, or FFIEC Work
Programs) will be used. Further, managers may use the TPS to allocate examination resources,
such as matching examiner skills to the complexity of the institut ion, or determining training
needs. Table 2 shows the examination procedures to be used for each technology type.




                                                 6
Table 2: Technology Risk Profile and Applicable Examination Procedures
    TPS                                                                                      IT Examination
                                          Description
    Type                                                                                     Procedures Used
           Limited Networking and E-Banking; No in -house programming or core
Type I     processing;                                                                   IT-MERIT Procedures
           Minimal external threats;
           Primary risks: Core banking system or vendor management;
           Does not have an examination history of less than satisfactory ratings.

           Same as Type I, except that the institution has an examination history of
Type II    less than satisfactory ratings.                                               IT General Work Program

           Fully integrated networking;
Type III   Increased external threats from E-banking and Internet connections;           IT General Work Program,
           Increased operational risks from limited programming activities or            supplemented with FFIEC
           servicing responsibilities.                                                   Work Programs, as needed

           Reliance upon networks and other communication systems as a critical
Type IV    element of operations;                                                        FFIEC Work Programs
           Networking and Internet connectivity relied upon as critical
           communications medium;
           Risk of compromise or access to critical systems resulting from Internet
           and other wide-area network connections, is present;
           Complex technology.

Source: DSC Examination Guidance, September 2002.



RESULTS OF EVALUATION

DSC has actively promoted sound business continuity planning practices in financial institutions.
Through its participation in the FFIEC, DSC was the primary author of interagency guidance on
business continuity planning. This guidance organizes key elements of business continuity
planning into an easily readable and usable format that will assist bankers in developing, and
examiners in assessing, BCPs at financial institutions. DSC also examines the services
performed for FDIC-supervised institutions by technology service providers (TSP). 4 These
examinations include an assessment of the TSP’s business continuity planning. Through its
participation in the Financial and Bank ing Information Infrastructure Committee (FBIIC), 5 DSC
has worked to assess the vulnerabilities and risks facing the banking industry. DSC has also
incorporated key elements of business continuity planning into the curriculum of its in-house
training program for examiners. Further, for a sample of IT examinations we reviewed, we
concluded that DSC examiners generally used the appropriate work programs and adequately
documented the procedures performed and the conclusions reached, in accordance with DSC’s
approach to IT examinations (See Finding A: DSC Actively Participates in Efforts to
Address Business Continuity Planning).

4
  TSPs are third-party companies that provide information technology support to financial institutions.
5
  The FBIIC was created by Executive Order 13231. The FBIIC is charged with coordinating federal and state
financial regulatory efforts to improve the reliability and security of the U.S. financial system. The Department of
the Treasury’s Assistant Secretary for Financial Institutions chairs the committee.


                                                          7
DSC’s newly implemented examination work programs, however, do not always address certain
key elements that should be included in every BCP, regardless of the size and complexity of the
financial institution being examined. Specifically, the IT MERIT Procedures and IT General
Work Program, used for IT examinations of Type I, Type II, or Type III institutions, focus
largely on disaster recovery planning (an IT function) as opposed to enterprise-wide business
continuity planning (overall business concerns, such as the people, management succession, and
backup sites). As a result, DSC supervisory examinations may not be adequately assessing
whether most FDIC-supervised institutions would be able to effectively respond to a disruption
and maintain critical business functions until those functions are fully restored (See Finding B:
DSC’s Examination Approach to Business Continuity Planning ).



                       FINDINGS AND RECOMMENDATION

FINDING A: DSC ACTIVELY PARTICIPATES IN EFFORTS TO ADDRESS
BUSINESS CONTINUITY PLANNING

DSC has actively promoted sound business continuity planning practices in financial institutions
through its involvement in the FFIEC and FBIIC and through its in-house examiner training
program. Further, we determined that, generally, DSC’s assessments of BCPs at
FDIC-supervised institutions and TSPs were conducted and adequately documented in
accordance with established guidelines.


DSC Participation in the FFIEC

Members of DSC’s E-Banking Branch, through their affiliation with the FFIEC’s Task Force on
Supervision, were the primary authors of the BCP Booklet. DSC’s approach to IT examinations
requires examiners to consider using FFIEC Work Programs for IT examinations of Type III and
Type IV institutions. Therefore, with the release of the FFIEC updated guidance, the BCP
Booklet has become the examiner’s primary source of guidance in assessing business continuity
planning at these financial institutions and TSPs.

In July 2002, DSC circulated the draft BCP booklet to examiners for field testing in a
coordinated effort with other FFIEC agencies. DSC examiners were asked to incorporate the
work steps into their IT examinations conducted through August 2002 and to provide feedback
on the following:

       Relevance and accuracy of subject                Adequacy of information to assess risk
       Definitions of BCP concepts                      Length of time to complete steps
       Length of booklet                                Helpfulness in setting exam scope
       Clarity of material                              Necessity of training

DSC incorporated the feedback into the final BCP booklet, which was issued in May 2003. As
discussed later in our report, we found that the BCP booklet addresses all of the key elements of


                                                8
business continuity planning that we identified from our research of industry sources. The BCP
booklet also organizes the elements into an easily readable and usable work program format that
will assist bankers and examiners in developing and assessing, respectively, BCPs at financial
institutions.

Also through its membership in the FFIEC, DSC participates in various other non-bank IT
examinations. Two noteworthy reviews are the TSP and Multi- Regional Data Processing
Servicers (MDPS) Examinations. The FFIEC agencies examine TSPs to identify existing or
potential risks that could adversely affect serviced financial institutions. When a large TSP is
regional or national in scope and services more than one class of financial institutions, the FFIEC
evaluates the TSP for selection into the MDPS program. The FFIEC agencies examine MDPS
organizations because these entities pose a systemic risk to the banking system should one or
more have operational or financial problems or fail. When conducting these IT examinations,
examiners focus on the underlying risk issues that are common to all IT activities, including the
availability of services that the TSP or MDPS organization is providing to the financial
institution. During these examinations, the effectiveness of the organization’s business
continuity program and adherence to service- level agreements is reviewed. Therefore, DSC’s
participation in these examinations helps to ensure that key service providers of FDIC-supervised
institutions are maintaining adequate BCPs for key processes that will facilitate the serviced
institutions’ ability to provide critical services to their customers in the event of a disruption.


DSC Participation in the Financial and Banking Information Infrastructure Committee

DSC officials also participate in various working groups within the FBIIC. The FBIIC has taken
actions designed to assess potential systemic vulnerabilities of the U.S. financial system to
disruptions caused by electronic or physical destruction of critical sector assets. Understanding
these systemic vulnerabilities will enhance a financial institution’s ability to appropriately
identify how its business processes and customers would be affected by such disruptions, which
is a key element in developing a BCP.

One ongoing FBIIC initiative is the development of a vulnerability assessment that will assess
the resilience of the retail banking system in the post-September 11 environment. Retail banking
services are services offered by or through federally insured depository institutions, such as most
FDIC-supervised institutions, to individuals and households. The objective of the vulnerability
assessment is to determine whether key single points of failure exist that would have a material
effect on the retail financial system. Although these initiatives are led by the Department of the
Treasury, DSC’s role is to meet periodically with the members of the Vulnerability Assessment
Working Group and to review and provide comments on the draft report. The vulnerability
assessment for the retail banking system is slated to be finalized in the fall of 2003.

DSC also participated in FBIIC’s Telecommunications Working Group, which was responsible
for developing two programs, described below, to enhance communication between financial
institution regulators and sponsored affiliated institutions in the event that important
telecommunication services are disrupted:




                                                 9
   •   Government Emergency Telecommunications Service (GETS) Card Program, which
       allows priority of telecommunication services to qualified users; and

   •   Telecommunications Service Priority Program, which allows sponsored institutions
       priority service restoration or provisioning of telecommunication circuits.

DSC’s role in these programs has been to review applications for sponsorship submitted by
FDIC-supervised institutions and to make recommendations to the Department of the Treasury
for sponsorship, in accordance with policy established by the FBIIC.

DSC officials are also members of other FBIIC working groups, including the Communications
Working Group. The Communications Working Group is responsible for the FBIIC’s Web site
and the speaker’s bureau and outreach and for communicating U.S. Department of Homeland
Security information to the banking sector.


Examiner Training Stresses Enterprise-Wide Business Continuity Planning

The FDIC’s Corporate University, School of Supervision and Consumer Protection, offers
technical training programs for risk management and compliance. One of the risk mana gement
training courses is the Information Technology Exam Course (ITEC). This training program
provides an opportunity for participants to take part in a series of case studies designed to
reinforce concepts and techniques that will further an examiner’s ability to assess a financial
institution’s technology risk through use of the IT General Work Program and other IT
examination tools. The course includes a segment on the evaluation of the adequacy of business
continuity planning/disaster recovery planning processes. The course content adequately
addressed the concepts of enterprise-wide business continuity planning, including concepts
contained in the FFIEC’s BCP Booklet. Therefore, DSC provides training to its IT examiners
that stresses the importance of enterprise-wide business continuity planning at financial
institutions and the examination procedures that should be applied in assessing an institution’s
business continuity planning.


IT Examiner’s Implementation of DSC’s Approach to Business Continuity Planning at
FDIC-Supervised Institutions

We reviewed IT examination workpapers for 10 judgmentally selected IT examinations. The
purpose of our review was to determine whether the examiners’ reviews of BCPs at
FDIC-supervised institutions were cons istent with DSC’s IT examination approach that was
implemented in September 2002. Based on our review of examination workpapers, we
concluded that DSC examiners used the TPS to determine the technology risk profile type of the
institution and used the appropriate work program(s) to complete the examination. We did not
test the accuracy of the responses to the TPS because those tests would have been outside the
scope of this evaluation.




                                               10
Although there is no written requirement for DSC examiners to review business continuity
planning at each IT exam, senior management at the regional offices we visited told us that they
require their examiners to review BCPs as part of each IT exam. For each of the 10
examinations reviewed, we were able to determine from the examination workpapers: the
procedures performed by the examiner, the conclusions reached, and any matters that warranted
discussion in the Report on Examination regarding business continuity planning. Therefore, we
are reasonably assured that DSC examiners are conducting their reviews of business continuity
planning in accordance with DSC’s established guidance.


FINDING B: DSC’S EXAMINATION APPROACH TO BUSINESS
CONTINUITY PLANNING

DSC’s examination approach to assessing business continuity pla nning at FDIC-supervised
institutions does not address certain key elements that should be included in every BCP,
regardless of the size and complexity of the financial institution. DSC reviews business
continuity planning at FDIC-supervised institutions as part of its IT examination program. The
IT MERIT Procedures, used for IT examinations of Type I institutions, and the IT General Work
Program, used for IT examinations of Types II and III institutions, focus on disaster recovery
planning not business continuity planning. DSC was aware of the FFIEC’s efforts to develop a
BCP Booklet at the time that the IT MERIT and IT General Work procedures were being
developed. However, DSC focused solely on developing procedures for IT-related functions
because the procedures were for IT examinations. As a result, DSC’s supervisory examinations
may not be adequately assessing whether most FDIC-supervised institutions would be able to
effectively respond to a disruption and maintain critical business functions until those functions
are fully restored.


Key Elements of Business Continuity Planning

We researched business continuity planning guidance from a variety of industry sources. These
sources included a cross-section of government, private consultants, and federal financial
regulatory agencies that identified common elements of business continuity planning that should
be addressed by a business entity, regardless of its size and complexity. In July 2003, we
provided 14 common business continuity planning elements to DSC management officials in the
Washington and Regional Offices for their review and comment. DSC officials agreed that the
14 elements should be included in a financial institution’s BCP and that the degree to which they
are implemented is determined by the risks associated with the particular entity and its size and
complexity. Table 3 identifies the business continuity planning elements, the industry sources,
and whether the concepts were included in the published guidance.




                                                11
Table 3: Common BCP Elements




                                                                                   Interagency
                                                                         FISCAMa




                                                                                                                  ISACAe
                                                                                                 FEMAc




                                                                                                                           FFIECf
                                                                                   Paperb




                                                                                                         NIST d
Common Elements of Business Continuity Planning

Board of Directors and senior management are involved in and
                                                                         X         X             X       X        X        X
committed to business continuity planning.
Plan is documented and made policy.                                      X         X             X       X        X        X
Addresses various business threat/ disruption scenarios.
                                                                         X         X             X                X        X

Business Impact Analysis is performed on an enterprise-wide
basis. All critical business functions/assets are identified and         X         X             X       X        X        X
prioritized, not just technology function/assets.
Is updated as changes in technology/business processes warrant.
                                                                         X                               X        X        X

Provides for alternate telecommunication services/interoperable
                                                                         X         X             X                X        X
communications.

Provides for alternative processing sites located an appropriate
                                                                         X         X             X       X        X        X
distance away.
Critical data files are backed up appropriately and stored off-
site an appropriate distance away from the data processing               X         X             X       X        X        X
facility.
Includes a plan for succession and/or loss or inaccessibility of key
                                                                         X         X             X       X        X        X
staff.

Staff is aware of responsibilities under the plan and is
                                                                         X                       X       X        X        X
adequately trained.
Key contractors/service providers are identified; backup
                                                                         X                               X        X        X
arrangements are in contract.
Insurance coverage adequately mitigates risk.                                                                     X        X
Plan is routinely tested, results are analyzed, and corrective actions
                                                                         X         X             X       X        X        X
are taken.
BCP and test results are subject to independent audit.                                                            X        X
Source: OIG Analysis.
Notes:
a
  The General Accounting Office, Accounting and Information Management Division issued, “Federal Information
System Controls Audit Manual” (FISCAM) in January 1999.
b
  "Interagency Paper on Sound Practices to Strengthen the Resilience of the U.S. Financial System" was issued by
the Federal Reserve Board, the Office of the Comptroller of the Currency, and the Securities and Exchange
Commission in April 2003.
c
  Federal Emergency Management Agency, "Federal Preparedness Circular 65," July 26, 1999.
d
  National Institute of Standards and Technology (NIST), Technology Administration, U.S. Department of
Commerce, Special Publication 800-34, “Contingency Planning Guide for Information Technology Systems,
Recommendations of the National Institute of Standards and Technology,” dated June 2002.
e
  Information Systems Audit and Control Association (ISACA), “Certified Information Systems Auditor Review
Manual.”
f
  "FFIEC Business Continuity Handbook" issued in May 2003.



                                                           12
We concluded that DSC’s approach to reviewing BCPs at FDIC-supervised institutions does not
always incorporate the mo re enterprise-wide elements of business continuity planning and
instead focuses on the IT aspects of disaster recovery planning. As Table 4 shows, our
evaluation of DSC’s approach to assessing business continuity planning indicates that 7 of the
14 BCP common elements identified in Table 3 either are not adequately addressed in the IT
MERIT and IT General Work Program procedures or are not addressed at all.

Table 4: BCP Common Elements That Need To Be Addressed in DSC’s Approach
                                               IT Merit            IT General
BCP Common Elements
                                              Procedures         Work Program
Business Impact Analysis is performed on an enterprise-            Not adequately   Not adequately addressed
wide basis. All critical business functions/assets are             addressed
identified and prioritized, not just technology function/assets.
Updates to BCP should be made as changes in                        Not adequately   Not adequately addressed
technology/business processes warrant.                             addressed

BCPs should provide for alternate telecommunication                Not addressed    Not addressed
services, interoperable communications, and utilities.

BCPs should provide for alternate processing sites located an      Not addressed    Adequately addressed
appropriate distance away.

BCPs should address a plan for management succession or            Not addressed    Not adequately addressed
loss or inaccessibility of key staff.

BCPs should ensure that employees are aware of                     Not adequately   Adequately addressed
responsibilities under the BCP and are adequately trained to       addressed
carry out the plan and procedures.

Key contractors and service providers are identified and           Not adequately   Not adequately addressed
backup arrangements are in the contract.                           addressed

Source: OIG Analysis of BCP Common Elements and IT Examination Guidance.

Because the underlying purpose of business continuity planning is the resumption of business
operations, it is essential to consider the entire organization, not just technology, when
developing the plan. Further, BCPs should be reviewed periodically and updated to reflect and
respond to changes in the financial institution or its TSP, business processes, technology,
changes in key personnel, and the internal and external environments of the institution. Financial
institutions should plan for alternative telecommunication services and utilities and alternative
processing site(s) if the primary sources become inaccessible and/or unavailable for use.
Further, in making the arrangements for alternative telecommunications, utilities or physical
work sites, BCPs should ensure that alternative telecommunications and utilities are not
susceptible to single points of failure and that alternative facilities are not vulnerable to the same
set of risks as the primary location.

Additionally, BCPs should include management succession plans and plans for loss or
inaccessibility of key staff. Cross-training of employees should be utilized, and backup roles and
responsibilities should be clearly defined in the BCP should key personnel not be available to
restore operations. Further, staff should be fully aware of their responsibilities under the BCP
and should be aware of the risks of not fulfilling those duties. Finally, institutions should ensure


                                                           13
that all key contractors, vendors, suppliers, and service providers are identified and that the BCPs
include provisions if accessibility to these outsourced services becomes unavailable.

DSC officials agreed that the IT MERIT Procedures and IT General Work Program focus more
on IT than enterprise-wide aspects of business continuity planning. The FFIEC’s draft BCP
booklet was circulated to DSC examiners for field testing in July 2002, or 2 months before the
September 2002 release of DSC’s revised IT examination guidance. According to DSC officials,
it was not DSC’s intention to exclude enterprise-wide business continuity planning in DSC’s IT
examination guidance. In fact, the authors of the IT examination guidance were aware that the
BCP booklet was being drafted, but were unaware of the detailed concepts that were being
developed in the BCP booklet. Also, DSC officials stated that it is not readily apparent where a
review of business continuity planning should occur in DSC’s supervisory examination program.
DSC officials stated that it would make sense that the BCP review occur during a safety and
soundness examination (instead of an IT examination) as part of the assessment of an
institution’s management practices since the development of a BCP would be the responsibility
of the institution’s senior management and would be incorporated into the institution’s policy.

An institution’s BCP is a key management control. Accordingly, a goal for DSC should be that,
regardless of where the BCP review takes place, the results should be factored into the
determination of the management component of the institution’s CAMELS 6 rating.

Enterprise-wide business continuity planning is critical to the safety and soundness of all
financial institutions, regardless of the size, complexity, and/or risk. A disruption could occur
from a natural disaster (e.g., fire, flood, severe weather, chemical spills, air contaminants);
malicious activity (e.g., terrorism, electronic attack, sabotage); and/or technical disasters (e.g.,
transportation system disruption or loss of telecommunications, equipment, software, or utilities
such as power failures) that could impair the primary processing site and thereby make it
unavailable for use. Moreover, a disruption could make key personnel and/or decision- makers
inaccessible for maintaining the operations and services performed by the institution. Because
DSC’s approach is not designed to address the business or enterprise-wide aspects of business
continuity planning for most FDIC-supervised institutions, DSC may not be adequately assessing
whether most FDIC-supervised institutions would effectively respond to a disruption and
maintain critical business functions until those functions are fully restored. An institution’s
inability to resume business operations could result in an adverse effect on the regional economy,
reputation damage, operational downtime, and in the worst of circumstances, failure of the bank.




6
  Under the Uniform Financial Institutions Rating System, a numeric rating is assigned to reflect the assessment of
the bank’s financial condition, compliance with laws and regulations, and overall operating soundness. The FDIC’s
rating of six elements--Capital adequacy, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market
risk--is referred to as the CAMELS rating. CAMELS component and composite ratings range from 1 to 5, with a 5
rating representing the most critically deficient level of performance.


                                                        14
RECOMMENDATION

We recommend that the Director, DSC, incorporate the enterprise-wide aspects of business
continuity planning in DSC’s supervisory approach to examinations of FDIC-supervised
institutions.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DSC, provided a written response, dated September 23, 2003, to a draft of this
report. DSC agreed with our recommendation. DSC’s comments are presented in their entirety
in Appendix III to this report. DSC’s proposed action is sufficient to resolve the
recommendation. Because the proposed action is subject to interagency approval, DSC could
not provide a specific completion date. Accordingly, the recommendation will remain
undispositioned and open for reporting purposes until we have determined that the agreed-to
corrective action has been completed and is effective. Appendix IV presents a summary chart
showing DSC’s response to our recommendations.




                                             15
              APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to determine the adequacy of DSC’s approach to assessing
business continuity planning at FDIC-supervised institutions. We focused on the frequency and
extent to which DSC supervisory reviews address an institution’s ability to protect against,
recover, and resume operations in the event of future disruptions or catastrophic events
(including physical and electronic attacks).

To accomplish our objective, we performed the following work:

•   Reviewed DSC’s IT examination guidance, including work programs, examination
    procedures, Regional Director Memoranda and FDIC Financial Institution Letters, and
    Examination Documentation Modules, in order to gain an understanding of DSC’s approach
    to conducting reviews of business continuity planning at FDIC-supervised institutions.

•   Reviewed the FFIEC’s examination guidance, specifically, the 1996 Information Security
    Examination Handbook, to gain an understanding of the work programs available to DSC
    examiners in conducting IT examinations of Type III and Type IV institutions. We identified
    those procedures relevant to the review of business continuity planning. Additionally, we
    reviewed the BCP booklet that was released in May 2003 (after the start of our review) to
    gain an understanding of how the FFIEC work programs have changed regarding business
    continuity planning.

•   Researched guidance issued by government and private industry sources on the subject of
    business continuity planning to gain an understanding of the key concepts or elements of
    business continuity planning in business entities. We focused our research on guidance that
    was issued in response to the lessons learned from the September 11, 2001 terrorist attacks
    and the importance of how BCPs contributed to the financial sector’s ability to recover
    operations.

•   Identified key elements of business continuity planning that were common to the government
    and private industry sources researched.

•   Compared DSC’s IT examination guidance to the common key elements identified by our
    research in order to form a basis for our evaluation of DSC’s approach.

•   Interviewed DSC officials from Washington, D.C., and three regional offices (San Francisco,
    Chicago, and Dallas/Memphis) that are responsible for implementing DSC’s approach to IT
    examinations.

•   Interviewed DSC officials from Washington, D.C., who participate in FFIEC and FBIIC
    activities.

•   Reviewed examination workpapers for 10 sampled IT examinations. Our sample focused on
    IT examinations that started after January 1, 2003 and ended before May 22, 2003 in order to
    capture IT examinations that were conducted after issuance of the revised IT examination


                                               16
    guidelines in September 2002, with the exception of one examination. One examination of a
    TSP was performed in May 2002. We selected this May 2002 TSP examination because it
    was the most recent examination for which the FDIC was the lead agency. We judgmentally
    selected IT examinations for institutions that were located in large metropolitan areas. We
    also judgmentally selected institutions of various sizes and complexities to gain an
    understanding of the relative differences in DSC’s approach. Our sample was composed of
    the following technology risk profile types of institutions:


                        Technology Risk                     Number
                          Profile Type                       Tested
                                I                               1
                               II                               1
                               III                              4
                               IV                               2
                              TSPs                              2



    From the sample of examinations, we reviewed, when available, the following documents in
    the examination workpapers:

        •   Report of Examination
        •   Technology Profile Script and Scoring Matrix
        •   IT Examination Questionnaire
        •   Request Lists and Entry Letter
        •   Pre-examination planning memorandum
        •   On-site examination procedures and work programs used and examiner’s
            documentation of work performed.

•   Interviewed examiners- in-charge, when necessary, to obtain clarifications and insights from
    our reviews of workpapers.

•   Reviewed feedback from DSC examiners who field-tested the BCP booklet during its
    development phase.

•   Interviewed officials from the General Accounting Office (GAO) to gain an additional
    understanding of their work conducted on report number GAO-03-414, Potential Terrorist
    Attacks: Additional Actions Needed to Better Prepare Critical Financial Market
    Participants.

•   The nature of our objective did not require reviewing related performance measures under
    the Government Performance and Results Act, testing for fraud or illegal acts, or determining
    the reliability of computer-processed data obtained from the FDIC’s computerized systems.
    We gained an understanding of relevant internal control activities by examining DSC’s
    applicable policies and procedures as presented in DSC manuals, IT examination guidance,
    Regional Director Memoranda, and Examination Documentation Modules, when appropriate.


                                               17
   We decided not to test internal control activities because we concluded that the objective
   could be met more efficiently by conducting substantive tests (workpaper reviews) rather
   than placing reliance on the internal control system.

We completed field work at DSC offices located in Washington, D.C., and the San Francisco and
Chicago regional offices. We conducted our evaluation from March 2003 through July 2003, in
accordance with generally accepted government auditing standards.




                                               18
                                     APPENDIX II: GLOSSARY

Term                                  Definition
Business Impact Analysis (BIA)        The process of identifying the potential imp act of uncontrolled, non-
                                      specific events on an institution’s business process.
Disaster Recovery Plan                Disaster recovery planning is an IT function; in the IT context, disaster
                                      recovery plans document the actions that will be taken to restore
                                      computer processing applications, telecommunications services, and
                                      data after a disruption or disaster event to prevent or at least minimize
                                      the impacts that such an event will have on the business.
Financial and Banking Information     FBIIC is charged with coordinating federal and state financial
Infrastructure Committee (FBIIC)      regulatory efforts to improve the reliability and security of the U.S.
                                      financial system. Treasury's Assistant Secretary for Financial
                                      Institutions chairs the committee. Members of the FBIIC include
                                      representatives of the Commodity Futures Trading Commission, the
                                      Conference of State Bank Supervisors, the FDIC, the Board of
                                      Governors of the Federal Reserve System (FRB), the National
                                      Association of Insurance Commissioners, the National Credit Union
                                      Administration (NCUA), the Office of the Comptroller of the Currency
                                      (OCC), the Office of Federal Housing Enterprise Oversight, the Offices
                                      of Homeland and Cyberspace Security, the Office of Thrift Supervision
                                      (OTS), and the Securities and Exchange Commission.

Federal Financial Institutions        The FFIEC was established on March 10, 1979, pursuant to Title X of
Examination Council (FFIEC)           the Financial Institutions Regulatory and Interest Rate Control Act of
                                      1978, Public Law 95-630. The FFIEC is a formal interagency body
                                      empowered to prescribe uniform principles, standards, and report forms
                                      for the federal examination of financial institutions by the FDIC, FRB,
                                      NCUA, OCC, and OTS and to make recommendations to promote
                                      uniformity in the supervision of financial institutions.

Government Emergency                  GETS is an acronym for the Government Emergency
Telecommunications Service (GETS)     Telecommunications Service card program. GETS cards provide
                                      emergency access and priority processing for voice communications
                                      services in emergency situations.

Multi-Regional Data Processing        TSPs who qualify for the MDPS Program. An organization is
Servicers (MDPS)                      considered for the MDPS Program when it processes: mission-critical
                                      applications for a large number of financial institutions that are
                                      regulated by more than one agency, thereby posing a high degree of
                                      systemic risk; or work from a number of data centers located in different
                                      geographic regions.
Technology Profile Script (TPS)       Designed to be a basic standard measurement of the complexity and risk
                                      of a financial institution’s information technology (IT) functions, the
                                      TPS is completed by DSC prior to every IT exam and is used to
                                      determine examination scope and examiner resources. Upon
                                      completion of the TPS, a score is calculated. The score becomes the
                                      primary basis for classifying an institution into one of four technology
                                      profile categories; Type I, Type II, Type III, or Type IV.
Technology Service Providers (TSP)    TSPs include independent data centers, joint venture/limited liability
                                      corporations, and bank service corporations.




                                                    19
APPENDIX III: CORPORATION COMMENTS




                20
                                 APPENDIX IV: MANAGEM ENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of
recommendations as of the date of report issuance. The information in this table is based on management’s written response to our
report and subsequent communication with management representatives.

                                                                                                                                                       Open
                                                                                                                      a                      b
 Rec.                                                                    Expected         Monetary        Resolved:         Dispositioned:              or
Number                   Corrective Action: Taken or                    Completion        Benefits        Yes or No           Yes or No               Closedc
                               Planned/Status                             Date
        1         DSC will request that the Management and
                  Internal Control Evaluation Module be revised to
                  incorporate the enterprise-wide aspects of BCP.
                  This request will be presented to the Interagency         November
                                                                                             N/A              Yes                   No                  Open
                  Examination Documentation Module                            2003
                  Maintenance Committee at its next meeting in
                  November 2003.


a.
     Resolved –      (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                     (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                     (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                     long as management provides an amount.

b.
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c.
     Once the OIG dispositions the recommendation, it can then be closed.




                                                                                21
